No. 20-28
IN THE SUPREME COURT OF THE UNITED STATES
PRICEWATERHOUSECOOPERS LLP, ET AL.,
PETITIONERS
v.
TIMOTHY D. LAURENT, INDIVIDUALLY AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via e-mail and first-class
mail, postage prepaid, this 25TH day of May, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains_ 5998
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on _May 25, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 25, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-0028
PRICEWATERHOUSECOOPERS, ET AL.
TIMOTHY LAURENT, ET AL.

LEON DAYAN
BREDHOFF & KAISER, P.L.L.C.
805 15TH STREET, N.W.
SUITE 1000
WASHINGTON, DC 20005
202-842-2600
LDAYAN@BREDHOFF.COM
MIGUEL A. ESTRADA
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036
202-955-8500
MESTRADA@GIBSONDUNN.COM
JAIME ANN SANTOS
GOODWIN PROCTER LLP
1900 N ST. N.W.
WASHINGTON, DC 20036
202-346-4034
JSANTOS@GOODWINLAW.COM
DANIEL J. THOMASCH
GIBSON, DUNN & CRUTCHER LLP
200 PARK AVENUE
NEW YORK, NY 10166
212-351-4000

